9/1/2021

Simmons Bank VISA Credit Card Agreement

SIMMONS BANK VISA CREDIT CARD AGREEMENT
Simmons Visa, Simmons Signature Visa, Simmons Red Rewards VISA
You should thoroughly review and retain a copy of this Agreement and the Account Documents. This Agreement, the
Summary of Rates and Terms which is incorporated into this Agreement, and all other Account Documents, as defined
below, govern the terms and conditions of your credit card account (the “Account”) issued by Simmons Bank.
“Summary of Rates and Terms” are defined as the credit card tabular format of Truth in Lending Act disclosure
requirements that promote informed use of consumer credit about our credit card’s terms and cost. These disclosures
may have been received by you as “Application Disclosures;” “Account Opening Disclosures;” or “Credit Card
Disclosures.” If you did not receive a table with the headings of “Interest Rates and Interest Charges” and “Fees” for
retention with your credit card Account Documents, please contact us immediately.
As used in this Agreement, “you” and “your” mean each applicant and co-applicant for the Account, any person
responsible for paying the Account, and any person to whom we issue a Card at your request. “We,” “us,” and “our”
mean Simmons Bank (located in Pine Bluff, Arkansas) and its successors, and assignees. “Account Documents” means
this Agreement, the Summary of Rates and Terms, all statements, the terms and conditions of any rewards program
applicable to your Account; the privacy notice of Simmons Bank, all disclosures and materials provided to you before or
when you opened your Account or at the time of application, the card mailer delivered with your Card, and any other
documents or disclosures relating to your Account that we provide, as well as all amendments or changes to each of the
preceding documents. With the exception of account statements, you may find current versions of each Account
Document at simmonsbank.com/bank/credit-cards or by contacting Simmons Bank by telephone at 1-800-272-2102 or
by mail at Simmons Bank, P.O. Box 6609, Pine Bluff AR 71611. Your Account statements are available by logging in to
your Account at www.simmonsbankcards.com or by contacting Simmons Bank at 1-800-272-2102.
You agree to be bound by this Agreement and the Account Documents upon executing, authorizing or submitting an
application to us or upon your use of the Account or any Card associated with your Account. Your consent to any
Account Document you receive following your application is evidenced by your use of the Account or any Card
associated with your Account following receipt of the document. This Agreement and the Account Documents become
effective immediately upon the approval of your Account by us.

USING YOUR ACCOUNT
You may use your Account and Card to make purchases or obtain cash advances by presenting your Card to
participating merchants or establishments, including certain automated teller machines (ATMs) where the Card is
accepted. You may also use your Account to make cash advances or transfer balances from other creditors in
connection with convenience checks, offers or other programs we may offer from time to time, pursuant to the terms we
provide you with in connection with of any of these items.
You agree to use your Account only for personal, family or household purposes. Your Account may be used only for
valid and lawful purposes. If you use, or allow someone else to use, your Card and Account for any other purpose or for
any illegal purpose, you will be responsible for this use and may be required to reimburse us for all amounts or expenses
we pay as a result of such use.
Unless prohibited by applicable law, we may, from time to time, limit the type, number or dollar amounts of any
transactions when using the Account. We may also terminate or suspend your use of your Account or Card without
notice unless prohibited by applicable law. We may decline to authorize a transaction for any reason. By way of example
and not as limitation, we will not authorize any transaction that is identifiable as being related to gambling nor will we
authorize the use of your Account for the purchase of money orders, traveler’s checks, wire transfers or foreign currency
purchases. We may permit the use of your Account to obtain cash advances for these purposes. We are not responsible

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

1/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

for any losses you incur if we do not authorize a transaction nor are we responsible for any losses you incur if a
merchant or establishment refuses to accept your Card. You may not use the Card or your Account for any illegal
transaction or any gambling transaction. We will decline identifiable gambling transactions.
Promise to Pay. By using your Card or your Account, you promise to pay us for all transactions made on your Account,
as well as any fees, interest charges or other charges. If this is a joint account, each of you, together and individually, is
responsible for all amounts owed, even if only one of you uses the Account.
You are liable for all charges, cash advances, interest, fees, and other costs that accrue or arise from the use of your
Card or Account, except with respect to any unauthorized use for which you will not be liable as described in the
following paragraph. You will be liable for any use of your Card or Account by any person to whom you knowingly, and
with consent, give your Card or PIN.
Unauthorized Use. You must notify us immediately and assist us in our investigation if your Card is lost or stolen or you
believe someone is using your Account or Card without your permission. If you notice the loss or theft of your Card or a
possible unauthorized use of your Card or Account, you should contact us immediately at 1-800-272-2102.
You will not be liable for any unauthorized use of your Card that occurs after you notify us. If we reimburse you for
unauthorized transactions, we ask that you assist us in investigating, pursuing and getting reimbursement from the
wrongdoer.
Credit Limits. When you open your Account, we will tell you your credit limits. Your credit limit and your available
balance will also appear on your statement. We may give you different credit limits for the different balances in your
account in addition to an overall credit limit. We may increase or decrease your credit limit or your cash advance limit at
any time, without notice. You are required to keep your Account balance at or below your credit limit(s). If your credit
limit(s) is exceeded in any manner, we may refuse to honor Card transactions and you will be liable for all purchases and
borrowings made in exceeding the credit limit(s). We may honor transactions above your credit limits, but if we do,
these transactions will not increase your credit limit(s). We have the right to require you to immediately pay the amount
that exceeds your credit limit. In addition, you will be in default under this Agreement.

INTEREST AND FEES
Interest Charges. Interest charges start to accrue on cash advances, convenience checks and balance transfers from the
transaction date. Interest charges for purchases generally will start to accrue from the transaction date, however, no
interest charges will be imposed on new purchases if the entire balance in your Account is paid by the due date each
month. If you do not pay the entire balance on your Account, interest charges will be imposed until you pay the entire
balance on your Account.
We calculate the interest charge on your Account by applying the periodic rate to the “average daily balance” of your
Account. To get the “average daily balance” we take the beginning balance of your account each day, add any new
purchases, advances, fees and unpaid interest charges, and subtract any payments or credits. This gives us the daily
balance. Then, we add up all the daily balances for the statement cycle and divide the total by the number of days in the
statement cycle. This gives us the “average daily balance.”
Your account has a variable rate, also known as the annual percentage rate or APR, indexed on the Prime Rate. Your rate
will increase if the Prime Rate increases but will only change one time per statement cycle. If the Prime Rate increases,
you may pay more interest and may have a higher minimum payment due. Changes in APRs (increases or decreases)
due to changes in the Prime Rate will be effective on the first day of your next statement cycle beginning at least two
days after the change in the Prime Rate. The Prime Rate is the prime rate published in the Money Rates column of The
Wall Street Journal in effect for the second business day prior to the beginning of each statement cycle.
Transactions on your Account will be added to one of three separate balances maintained in your Account depending
on the nature of the transaction. Purchase transactions are aggregated to the purchase balance. Cash advances,
including advances made by using ATM machines or convenience checks, are aggregated to the cash advance balance.
https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

2/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

Balance transfers are aggregated to the balance transfer balance. Each of these three balances are aggregated to
identify your total outstanding balance. We may impose different variable rates for each of the purchase balance, the
balance transfer balance, and the cash advance balance. The applicable interest rates, as well as the identification of the
margin applied to the Prime Rate, for each of these balances is set forth on the Summary of Rates and Terms received
with your application or this Agreement.
Fees. The fees identified below will be applied to your Account in addition to the interest charges. The dollar amounts of
each specific fee is set forth in the Summary of Rates and Terms received with your application or this Agreement. We
place fees that result from a specific transaction into the same balance as that specific transaction. We place fees that
do not result from a specific charge, such as a returned payment fee, into your purchase balance.
Cash Advance Fee: In addition to the periodic Interest on Cash Advances, a Cash Advance Fee as specified in the
accompanying Summary of Rates and Terms will be applied to your Account upon completing a Cash Advance.
Balance Transfer Fee: In addition to the periodic Interest on Balance Transfers, a Balance Transfer Fee as specified
in the accompanying Summary of Rates and Terms will be applied to your Account upon completing a Balance
Transfer.
Late Payment Fee: If we do not receive at least the Minimum Payment Due by the Payment Due Date shown on
your Account statement, you will be charged a Late Payment Fee as specified in the accompanying Summary of
Rates and Terms. We may also refer to this fee as the “late fee” or “late charge.”
Over Credit Limit Fee: If you exceed any credit limit on your Account, you may be charged an Over Credit Limit
Fee as specified in the accompanying Summary of Rates and Terms.
Returned Payment Fee: If your payment to us (by check, electronic funds transfer, telephone authorized draft, or
other payment mechanism) is not honored by your financial institution for any reason or cannot be processed, we
will charge a Returned Payment Fee as specified in the accompanying Summary of Rates and Terms.
Foreign Transaction Fee: We will assess a Foreign Transaction Fee as specified in the accompanying Summary of
Rates and Terms for any transaction made in a foreign currency that is converted to U.S. dollars by VISA. This
Foreign Transaction Fee will be applied to all transactions posted to your Account in a foreign currency, including
all purchases, cash advances, and returns and adjustments (e.g., for returned merchandise). A portion of each
Foreign Transaction Fee is passed on by us to VISA.

PAYMENTS AND STATEMENTS
General. Except as otherwise stated in this Agreement, we will send you an account statement by regular mail to your
address as it appears on our records. We will send your account statement for each statement cycle at the end of which
your Account has a debit or credit balance or on which an interest charge or other fee has been imposed. We will not
send your account statement if (a) we deem your Account uncollectible, (b) delinquency collection proceedings have
been instituted, or (c) for any other reason permitted by applicable law.
Payments received in proper form by 4 PM Central Time on any business day will be credited to your Account as of that
day. Payments received in proper form after 4 PM Central Time on any day will be credited to your Account as of the
next business day. If you mail your payment to an address other than the payment address shown on your statement,
there may be a delay in crediting the payment to your Account. Delayed crediting of payments may cause you to incur
additional charges, including, but not limited to, a Late Fee and additional Interest charges. Payments made within one
of our branch offices are processed the day they are made (even if made after 4 PM Central).
We may accept checks or other types of payment which are marked “payment in full” or use other language to indicate
satisfaction of any indebtedness without being bound by such language or waiving any rights under this Agreement. We
are under no obligation to hold a postdated check and we reserve the right to process every item presented as if dated
the same date received by us. You must pay us in U.S. dollars in funds on deposit in the U.S. If you do not, we may refuse
to accept your payment. We may also charge you the costs we incur to collect the funds and we may select the currency
conversion rate.

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

3/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

Application of Payments. We apply payments up to the Minimum Payment Due at our discretion in accordance with
applicable law. This may result in balances at lower interest rates being paid before other balances. This may also result
in higher interest charges. Payments in excess of the Minimum Payment Due will be applied first to your highest interest
rate balances, in accordance with applicable law.
Although we may post payments from you as of the date we receive them, your available credit may not be restored for
up to seven (7) days after we receive your payment.
Minimum Payment Due. You must pay at least the Minimum Payment Due shown on your account statement on or
before the Payment Due Date shown on your statement. The amount of your Minimum Payment Due may vary from
statement to statement and is determined as described in the Summary of Rates and Terms as the greater of a specified
percentage of the new balance shown on your statement or a specified dollar amount. If the new balance on your
statement is less than the specified dollar amount, you will be required to pay the full balance.
You may without penalty pay more than your Minimum Payment Due or pay any portion of your balance before the
Payment Due Date. You understand that by making such a prepayment, the total amount you owe us will be reduced but
that you must pay the Minimum Payment Due reflecting on any following account statements.

DEFAULT AND TERMINATION
Default. Subject to applicable law, your Account will be in default under this Agreement if any one of the following
occurs:(a) you become generally unable to pay your debts, (b) you die or are declared legally incompetent, (c) you use
a check or instrument for payment that is dishonored, (d) you fail to pay the Minimum Payment Due on or before your
Payment Due Date, (e) any other creditor tries by legal process to take money of yours in our possession, (f) a petition is
filed or other proceeding is commenced by or against you under the federal bankruptcy act or any other applicable
federal or state insolvency laws, (g) you provide us with any false or misleading information, (h) you breach any of your
other obligations under this Agreement, (i) you exceed your any credit limit on your Account, (j) you are in default of
any other credit agreement you have with us or any of our affiliates, or (k) we believe in good faith that you may not pay
or perform your obligations under this Agreement. The payment of any fee charged by us will not cure the default that
caused the fee.
Late payments, missed payments, or other defaults on your Account may be reflected in your credit report. If you
believe that we have reported inaccurate information about your Account to a credit bureau or other consumer
reporting agency, notify us in writing at Simmons Bank, P.O. Box 6609, Pine Bluff AR 71611. When you write, tell us the
specific information that you believe is incorrect and why you believe it is incorrect.
Our Rights When You Are in Default. If your Account is in default under this Agreement, we may, subject to applicable
law, (a) require you to pay any portion of your outstanding Account balance immediately, (b) allow you to repay your
Account subject to the terms and conditions of this Agreement, (c) immediately terminate your Account and cancel all
Cards, (d) reduce your Account credit limit or otherwise limit your ability to make transactions, (e) commence a legal
proceeding against you to collect all amounts owed in connection with this Agreement, or (f) increase the APR for
Purchases and Cash Advances. We also may charge you court costs and reasonable attorneys’ fees that we incur, as
permitted by applicable law, if your Account is sent for collection to an attorney who is not our salaried employee. We
will not be obligated to honor any attempted use of your Card or your Account if your Account is in default, or we have
decided to terminate your Account or limit your ability to make transactions as discussed in this Agreement. Except as
otherwise provided for in this Agreement, interest charges will continue to accrue at the APR in effect at the time of
default until your total Account balance, including such accrued interest charges, is paid in full. You agree that, subject
to applicable law, if your Account is in default under this Agreement, you will accept calls from us at your home and
your place of business regarding collection of your Account. You understand and agree that the calls to your home may
be automatically dialed and a recorded message may be played. You agree such calls will not be considered
“unsolicited” calls or telemarketing calls for purposes of state or federal law.

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

4/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

Delays in Enforcement. We can delay enforcing or not enforce any of our rights under this Agreement without losing
our right to enforce them in the future. For example, we may accept late payments or payments that are marked
“payment in full” or with other restrictive endorsements without losing any of our rights under this Agreement.
Termination. Subject to applicable law, we may terminate this Agreement or revoke your right to use your Account or
Card, along with your right to make future transactions, at any time and for any reason without notice to you. You may
terminate your Account and use of your Card at any time by calling 1-800-272-2102, or mail to Simmons Bank, P.O. Box
6609, Pine Bluff AR 71611, or email to bankcardcustomerservice@simmonsbank.com. Any request to terminate your
Account will be effective after we have had a reasonable opportunity to act on such request. The termination of this
Agreement, whether initiated by us or you, will not affect any of your or our rights and obligations under this
Agreement. If this Agreement is terminated, you must still repay any amounts you owe us, even if we allow a transaction
to be completed with your Account or Card after this Agreement has been terminated. You agree to give to us or to
destroy all of the Cards issued on your Account when we ask you to or when this Agreement is terminated. If someone
attempts to use a Card after this Agreement is terminated, the Card may be retained. A Card also may be retained when
you try to use it when certain other events occur.

REEVALUATION OF FINANCIAL CONDITION AND CREDIT HISTORY
We may reevaluate your financial condition and investigate any information you provided on your Account application at
any time. In the course of doing so, we may obtain a current credit report and ask you for additional information about
your financial condition by completing a personal financial statement or such other form that we request from time to
time. You give us your permission to obtain any information about you that we believe would be beneficial to facilitate
our determination of your eligibility for the Account and the Card, including credit reports from consumer reporting
agencies. We may, as a result of any such re-evaluation, (i) increase your credit line; (ii) decrease your credit line; or (iii)
deem your Account to be in default.

CHANGES TO THIS AGREEMENT
At any time, we may add, delete or change any term of this Agreement, unless applicable law prohibits us from doing
so. We will give you notice of any changes as required by law. We may notify you of changes on your statement or in a
separate notice. Our notice will tell you when and how the changes will take effect. The notice will describe any rights
you have in connection with the changes. Changes to this Agreement may include but are not limited to increasing any
rate of interest, increasing or adding fees or charges (including annual fees), changing your credit limit(s), or limiting the
number or amount of transactions on your Account). Any such changes will generally be effective immediately unless
we are required by applicable law to provide you with advance written notice of the proposed changes. If this is the
case, those changes will be effective immediately following the effective date stated in the notice. We will give you
notice of any such change in the manner required by law. Subject to applicable law, any such changes will apply to your
outstanding Account balance on the effective date of the change and to any future balances created after that date. If
we give you the right to reject a change (whether because it is required by applicable law or otherwise), and you do not
notify us by the date stated in a notice, or if you notify us but then use, or someone you have authorized uses, your
Account after the date stated in the notice, you will be deemed to accept all changes in the notice and to accept and
confirm all terms of your Agreement. If you reject a change that we make, we will close your Account. No change to any
term of this Agreement will affect your obligation to pay all amounts you owe under this Agreement.

COMMUNICATIONS WITH US
Contact Us. Unless we tell you otherwise, you can notify us by calling 1-800-272-2102, or mail to Simmons Bank, P.O. Box
6609, Pine Bluff AR 71611, or email to bankcardcustomerservice@simmonsbank.com. When writing, please include your
name, address, home telephone number and Account number.
Contact with You. To the extent permitted by applicable law, you authorize us and our affiliates, agents, and contractors,
and anyone to whom we may sell your Account, to contact you to service your Account or for collection purposes.

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

5/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

You agree that (a) these contacts are not unsolicited for purposes of any state or federal law; (b) we may contact you in
any way, including mail, email, calls, and texts, including on a mobile, wireless, or similar device, even if you are charged
by your provider, and using automated telephone equipment or prerecorded messages; (c) we may contact you at any
number that you have given us or any number we have for you in our records, even if that number is a wireless, cellular
or mobile number, is converted to a mobile/wireless number or connects to any type of mobile/ wireless device, and
even if such telephone number is currently listed on a Do Not Call Registry or the call results in charges from your
carrier; and (d) we may contact you at any email address you provide to us or any other person or company that
provides any services in connection with this Agreement.
Correspondence. To the extent permitted by applicable law, any communication you send to us will not be effective
until we receive it and have had a reasonable opportunity to act on it. Any communication we send to you will, however,
be effective and deemed delivered when mailed to you at your address as it appears on our records.
Monitoring and Recording. You authorize us to monitor and/or record your calls with us.
Updated Contact Information. You agree to notify us within 15 days after changing your name, e-mail address, mailing
address, or phone number. We will rely on the address we have for you in our records for any Account communications
we send to you unless and until either you or the U.S. Postal Service notifies us of a change of address. If your Account
is a joint Account, each of you appoints the other as your agent to designate the address to which any and all Account
communications, including the account statement, may be sent to you.

MILITARY LENDING ACT PROTECTIONS
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit
card account). To receive this disclosure by phone, please call 1-800-272-2102 and select the option for Military Lending
Act oral disclosures.

ARBITRATION AND JURY TRIAL WAIVER
NOTE: If you are a Covered Borrower under the Military Lending Act Regulations, you are not required to submit to
arbitration in the case of a dispute. If you were a Covered Borrower under the Military Lending Act Regulations with
regard to any prior agreement, this arbitration clause does not cover any claims related to that prior agreement.
You agree that either you or we can choose to have binding arbitration resolve any claim, dispute or controversy
between you and us that arises from or relates to this Agreement or the Account and credit issued thereunder
(individually and collectively, a “Claim”). This does not apply to any Claim in which the relief sought is within the
jurisdictional limits of, and is filed in, a small claims court. If arbitration is chosen by any party, the following will apply:
(a) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A CLAIM IN COURT OR TO HAVE A JURY TRIAL
ON A CLAIM, OR TO ENGAGE IN PRE-ARBITRATION DISCOVERY, EXCEPT AS PROVIDED FOR IN THE APPLICABLE
ARBITRATION RULES.
(b) Arbitration will only decide our or your Claim, and you may not consolidate or join the claims of other persons
who may have similar claims. YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A REPRESENTATIVE OR
MEMBER OF ANY CLASS OF CLAIMANTS, OR AS A PRIVATE ATTORNEY GENERAL, PERTAINING TO ANY CLAIM
SUBJECT TO ARBITRATION.
(c) The arbitration will be performed in accordance with this Arbitration Provision and the rules of the chosen
arbitrator in effect when the Claim is filed.
(d) Other rights that you would have if you went to court might also not be available in arbitration.

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

6/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

If arbitration is elected, any claim will be resolved pursuant to this provision and the American Arbitration Association
(“AAA”) rules and procedures (“Rules”) in effect at the time the claim is filed. If for any reason the AAA is unable or
unwilling or ceases to serve as arbitration administrator, another nationally recognized arbitration organization utilizing
similar rules and procedures will be substituted by us. If the AAA is selected, the arbitration will be handled according to
its Commercial Arbitration Rules.
This provision is made pursuant to a transaction involving interstate commerce and will be governed by the Federal
Arbitration Act, 9 U. S. C. §§ 1 et seq., as amended (“FAA”). The arbitrator will apply applicable substantive law
consistent with the FAA and applicable statutes of limitations and will honor claims of privilege recognized at law.
Judgment upon the award rendered by the arbitrator may be entered in any court having jurisdiction. The arbitrator’s
decision will be final and binding, except for any right of appeal provided by the FAA and except that, if the amount in
controversy exceeds $100,000, any party can appeal the award to a three-arbitrator panel administered by the AAA,
which will reconsider de novo any aspect of the initial award requested by the appealing party. The decision of the panel
will be by majority vote. The costs of such an appeal will be borne by the appealing party regardless of the outcome of
the appeal.
You may obtain rules and forms for the AAA by contacting the AAA at 1-800-778-7879 or www.adr.org.
Any arbitration hearing that you attend will take place in the federal judicial district where you reside. At your request,
we will temporarily advance your filing and hearing fees for any Claim you may file against us. At the conclusion of the
arbitration, the arbitrator will decide who will ultimately be responsible for paying the filing, administrative and/or
hearing fees in connection with the arbitration. Unless inconsistent with applicable law, each party will bear the expense
of that party’s attorneys’, experts’ and witness fees, regardless of which party prevails in the arbitration. We will also pay
any fees or expenses that applicable law requires us to pay.
This provision will survive termination of your Account, as well as the repayment of all outstanding amounts incurred in
connection with this Agreement. If any portion of this provision is deemed invalid or unenforceable under any law or
statute consistent with the FAA, it will not invalidate the remaining portions of this arbitration provision or the
Agreement. In the event of a conflict or inconsistency between the AAA Rules and this arbitration provision, this
provision will govern.

OTHER DEFINED TERMS
“Applicable law” refers to any applicable (a) federal, state or local statutes, regulations, licensing requirements,
regulatory bulletins or guidance, regulatory examinations, agreements or orders, (b) rule, regulation, restriction,
requirement or contractual term of Visa, and (c) judicial or administrative interpretations of any of the foregoing.
“Available credit” is the amount equal to your credit limit less your outstanding balance (including all principal,
accrued interest and fees, whether billed or unbilled.
The word “Card” refers to both the physical Card and any use of a Card. The word “use” shall include any
presentation of the Card or disclosure of its associated account number or PIN in any manner that permits someone
to purchase goods and services or obtain a cash advance. Using smart phones, tablets, or other electronic devices
that store your Card for purposes of credit transactions (e.g. through a mobile wallet or other application) will also
be considered a “use” of the Card.
“Credit limit” refers to the maximum permitted outstanding balance for your Account (including all principal,
accrued interest and fees, whether billed or unbilled).
“PIN” refers to your personal identification number that may be used to access your account at certain terminals
(e.g. ATMs) or by phone.

GENERAL
Waiver of Rights. Except as may be prohibited by applicable law, you agree to waive any right you may have for us to
act promptly in bringing any action(s) against you (known as diligence); to demand payments of amounts due (known
as presentment); to obtain an official certification of non-payment (known as protest); and to give notice that amounts
due will not be paid (known as notice of dishonor or notice of default and non-payment).
https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

7/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

Privacy Policy. You authorize us to share information about you and your Account as permitted by law. See our Privacy
Policy for details about our information sharing practices.
Assignment. You may not sell, assign or transfer your Account or Card or any of your rights and obligations under this
Agreement. We may, however, sell, assign or transfer your Account, or any balance due thereunder, and our rights and
obligations under this Agreement to another entity without your consent and without prior notice. That entity will take
our place in this Agreement.
Severability. If any provision of this Agreement is deemed to be void or unenforceable by a court of competent
jurisdiction or any governmental agency, that provision will continue to be enforceable to the extent permitted by that
court or agency, and the remainder of that provision will no longer be considered as part of this Agreement. All other
provisions of this Agreement will, however, remain in full force and effect.
Governing Law. This Agreement is entered into between you and us in the State of Arkansas and all credit issued under
this Agreement is issued from the State of Arkansas. Your Account and this Agreement, and any claim, dispute or
controversy arising from or relating to your Account or this Agreement, is governed by, and construed in accordance
with the laws of the State of Arkansas.
Entire Agreement. You acknowledge that this Agreement and all Account Documents, as amended from time to time,
make up the entire agreement between you and us and supersedes any prior or contemporaneous written or oral
communications or understandings between you and us concerning your Account and the Card.
Section Headings. The Section headings used in this Agreement are only meant to organize this Agreement, and do not
in any way limit or define your or our rights or obligations hereunder.

STATE NOTICES
CALIFORNIA RESIDENTS: A married applicant may apply for a separate account.
CALIFORNIA AND NEVADA RESIDENTS: Pursuant to this Agreement, interest is compounded on unpaid amounts.
MARYLAND RESIDENTS: Finance Charges will be imposed in amounts or at rates not in excess of those permitted by
law. You have the right under Section 12-510 of the Commercial Law Code to receive an answer to a written inquiry
concerning the status of your account.
NEW JERSEY RESIDENTS: Because certain provisions of this Agreement are subject to applicable law, they may be void,
unenforceable or inapplicable in some jurisdictions. None of these provisions, except for clause (k) in the “Default”
section, however, is void, unenforceable or inapplicable in New Jersey.
NEW YORK RESIDENTS: Your signature (including any electronic or digital signature) on any Application or on any
sales slip or other evidence of indebtedness on your Account or any action that you may take to begin a transaction
represents your signature on this Agreement.
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all
credit worthy customers, and that credit reporting agencies maintain separate histories on each individual upon request.
The Ohio civil rights commission administers compliance with this law.

Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Simmons Bank, P.O. Box 84042, Columbus, GA 319084042. You may also contact us on the Web at: www.simmonsbankcards.com
In your letter, give us the following information:
https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

8/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your
bill is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these is necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

9/10

9/1/2021

Simmons Bank VISA Credit Card Agreement

2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or electronically
at:
Simmons Bank
P.O. Box 84042
Columbus, GA 31908-4042
www.simmonsbankcards.com
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
F03-Y642-5 -0720

https://www.simmonsbank.com/terms-and-conditions/personal-credit-card-terms-and-conditions

10/10

